U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

December 2, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Cameron Battiste v. United States of America,
S.Ct. No. 20-6227

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 28,
2020, and placed on the docket on November 5, 2020. The government’s response is due on
December 7, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 6, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6227
BATTISTE, CAMERON
USA

DANIEL HILLIS
FEDERAL PUBLIC DEFENDER'S OFFICE
600 E. ADAMS STREET
3RD FLOOR
SPRINGFIELD, IL 62701
217-492-5070

